No. 19-357
[N THE SUPREME COURT OF THE UNITED STATES
CITY OF CHICAGO, ILLINOIS, PETITIONER
V.
ROBBIN L. FULTON, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE AND FOR DIVIDED ARGUMENT, via first-class
mail, postage prepaid, this 26th day of February 2020.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington. D.C. 20530-0001
(202) 514-2217
February 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0357
CITY OF CHICAGO, ILLINOIS
ROBBIN L. FULTON, ET AL.

MICHAEL LEWIS COOK
SCHULTE ROTH & ZABEL LLP
919 THIRD AVENUE
NEW YORK, NY 10022
212.756.2150
MICHAEL.COOK@SRZ.COM
ALEXANDRA E. DUGAN
BRADLEY ARANT BOULT CUMMINGS LLP
1600 DIVISION ST.
STE. 700
NASHVILLE, TN 37203
MARK A. FLESSNER
CITY OF CHICAGO OFFICE OF CORPORATION
COUNCEL
30 N. LASALLE STREET
SUITE 800
CHICAGO, IL 60602
312-744-7764
CRAIG GOLDBLATT
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
202-663-6000
CRAIG.GOLDBLATT@WILMERHALE.COM
STEPHEN C. PARSLEY
BRADLEY ARANT BOULT CUMMINGS LLP
1819 FIFTH AVENUE NORTH
BIRMINGHAM, AL 35203

SCOTT BURNETT SMITH
BRADLEY ARANT BOULT CUMMINGS LLP
200 CLINTON AVENUE WEST
SUITE 900
HUNTSVILLE, AL 35801
256-517-5198
SSMITH@BRADLEY.COM
CATHERINE STEEGE
JENNER & BLOCK LLP
353 N. CLARK STREET
CHICAGO, IL 60654
312-222-9350
CHARLES W. THOMPSON
INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION
51 MONROE ST.
SUITE 404
ROCKVILLE, MD 20850
CARL WEDOFF
JENNER & BLOCK LLP
919 THIRD AVENUE
NEW YORK ,NY 10022
EUGENE R. WEDOFF
144 N. ELMWOOD AVENUE
OAK PARK, IL 60302
312-285-5849
ERWEDOFF@ME.COM
JOHN P. WONAIS
THE SEMRAD LAW FIRM LLC
20S. CLARK STREET
CHICAGO, IL 60603
312-256-8516

